2/5/2020

Disclosures

IMPORTANT INFORMATION REGARDING ELECTRONIC
COMMUNICATION
READ THIS NOTICE CAREFULLY AND KEEP A COPY FOR YOUR RECORDS
Prior to applying for a(n) Modell's MVP® Credit Card account, Comenity Capital Bank requests your consent to
p r o v i d e y o u i m p o r t a n t i n f o r m a t i o n e l e c t r o n i c a l l y.
Yo u u n d e r s t a n d a n d a g r e e t h a t C o m e n i t y C a p i t a l B a n k m a y p r o v i d e y o u w i t h a l l r e q u i r e d a p p l i c a t i o n
disclosures regarding your Modell's MVP® Credit Card account application in electronic form. These
d i s c l o s u r e s i n c l u d e , b u t a r e n o t l i m i t e d t o , Te r m s a n d C o n d i t i o n s , t h e Yo u r M o d e l l ' s M V P ® C r e d i t C a r d
account agreement and Customer Privacy Statement.
Yo u a g r e e t o k e e p u s u p d a t e d a t a l l t i m e s w i t h y o u r c u r r e n t c o n t a c t i n f o r m a t i o n . I f y o u r c o n t a c t i n f o r m a t i o n
h a s c h a n g e d p l e a s e c o n t a c t u s a t 1 - 8 5 5 - 3 3 4 - 3 7 0 2 ( T D D / T T Y: 1 - 8 8 8 - 8 1 9 - 1 9 1 8 ) .
This consent does not enroll you in paperless statements. In order to enroll in paperless statements, please
v i s i t A c c o u n t C e n t e r.
A t y o u r r e q u e s t , w e w i l l p r o v i d e y o u w i t h p a p e r c o p i e s o f t h e s e d i s c l o s u r e s . Yo u h a v e t h e r i g h t t o w i t h d r a w
consent, without a fee. Please call us at 1-855-334-3702 to withdraw your consent to receive electronic
disclosures.
In order to receive electronic communications and to obtain the best view of these communications you will
need access to the Internet, have a web browser which supports HTML, SSL-encryption, JavaScript, CSS,
t h e c a p a b i l i t y t o d o w n l o a d a n d p r i n t t h e s e d i s c l o s u r e s , a n d A d o b e R e a d e r t o v i e w P D F f i l e s . Yo u m a y
download it for free at https://get.adobe.com/reader/. By selecting the "Submit" button, you confirm that your
system meets these requirements and that you have the capability to access and download or print
electronic disclosures.
We r e c o m m e n d t h a t y o u r e t a i n a c o p y o f t h e s e d i s c l o s u r e s f o r y o u r r e c o r d s .
If this is a kiosk, this kiosk will display the disclosures listed above. Printed copies can be obtained at the
customer service desk.

Rate and Fee Summary
This Rate and Fee Summary (Summary) is part of the Credit Card Agreement (Agreement) for the
Modell's MVP® Credit Card Account. Read it and keep it.

Interest Rates and Interest
Charges
Annual Percentage Rate (APR)
for Purchases

28.49%
This APR will vary with the market based on the
Prime Rate.

H o w t o Av o i d P a y i n g I n t e r e s t

Yo u r d u e d a t e i s a t l e a s t 2 5 d a y s a f t e r t h e c l o s e o f
each billing period. We will not charge you interest on
purchases if you pay your entire balance by the due
date each month.

Minimum Interest Charge

If you are charged interest, the charge will be no less
than $2 per credit plan.

For Credit Card Tips from the

To l e a r n m o r e a b o u t f a c t o r s t o c o n s i d e r w h e n

Consumer Financial Protection

applying for or using a credit card, visit the website

Bureau

of the Consumer Financial Protection Bureau at
h t t p : / / w w w. c o n s u m e r f i n a n c e . g o v / l e a r n m o r e .

Fees
https://d.comenity.net/modellsmvp/pub/requestCca/requestCca.xhtml

1/18

2/5/2020

Annual Fee

Disclosures

None

Penalty Fees
• Late Payment

Up to $40

• Returned Payment

Up to $40

H o w W e W i l l C a l c u l a t e Yo u r B a l a n c e : W e u s e a m e t h o d c a l l e d " d a i l y b a l a n c e ( i n c l u d i n g
current transactions)." Review your Agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those
rights is provided in your Agreement.
Wisconsin Residents: If you are married, contact us upon receipt of this Agreement at the General
phone number in the How to Contact Us section below and give us your spouse’s name and address.
Print Date: This Summary was printed October 2019. The information was accurate as of that date but
m a y h a v e c h a n g e d . To f i n d o u t m o r e , c o n t a c t u s a t t h e G e n e r a l m a i l i n g a d d r e s s o r p h o n e n u m b e r i n
t h e H o w t o C o n t a c t U s s e c t i o n b e l o w.
I s s u e r N a m e : Yo u r C a r d i s i s s u e d b y C o m e n i t y C a p i t a l B a n k .
G o v e r n i n g L a w : T h i s l o a n i s m a d e i n U t a h a n d t h i s A g r e e m e n t i s g o v e r n e d b y U t a h a n d f e d e r a l l a w.
Rate Information: The following chart provides details on your rates as of the Print Date shown
above. If this Agreement was provided at point of sale, review the Agreement with your welcome
package for variable rate information in effect within 30 days of mailing.

APR
Purchases

28.49% (v)

Daily Periodic
Rate
0.07805%

Margin
23.74%

(v) = variable
Annual Fee: If there is an Annual Fee in the Fee table above, this fee will be charged with the close
o f y o u r f i r s t b i l l i n g p e r i o d a n d a n n u a l l y t h e r e a f t e r. W e w i l l r e f u n d t h i s f e e i f y o u c l o s e y o u r A c c o u n t
within 30 days of the mailing or delivery date of the statement on which the fee appears. The fee is
otherwise non-refundable.
Late Fee: If you do not pay the Minimum Payment by the Due Date, we charge a Late Fee. The fee is
$29 if you were not charged a Late Fee during the prior six billing periods. Otherwise, it is $40. This
f e e w i l l n o t e x c e e d t h e a m o u n t p e r m i t t e d b y l a w.
Returned Payment Fee: If you make a payment that is not honored, we charge a Returned Payment
Fee even if the payment is honored on resubmission. The fee is $29 if you were not charged a
Returned Payment Fee in the same or the prior six billing periods. Otherwise, it is $40. This fee will
n o t e x c e e d t h e a m o u n t p e r m i t t e d b y l a w.
Alternative Payment Method Fee: We may allow you to make an expedited payment over the phone. If
y o u d o , w e m a y c h a r g e a f e e . C u r r e n t l y, t h a t f e e i s u p t o $ 1 5 . W e ’ l l l e t y o u k n o w t h e c u r r e n t f e e
before you authorize any payment and you can withdraw your request if you don’t want to pay the fee.
M i n i m u m P a y m e n t : Yo u m a y p a y t h e e n t i r e A c c o u n t b a l a n c e a t a n y t i m e . Yo u m u s t p a y a t l e a s t t h e
Minimum Payment each billing period by the Due Date on your statement.
If the New Balance on your statement is less than $35, the Minimum Payment is the New Balance.
If the New Balance is more than $35, the Minimum Payment is the Past Due amount plus the sum of
the amounts due on each Credit Plan as follows:
https://d.comenity.net/modellsmvp/pub/requestCca/requestCca.xhtml

2/18

2/5/2020

Disclosures

For each Credit Plan, sum of following rounded up to nearest $1:
(1) 1% of plan balance at end of billing period (excluding new
interest charges for plan) (minimum $5); plus

Regular Purchase

(2) New interest charges for plan
Deferred Interest, Payment

3.5% of plan balance at end of billing period rounded up to

R e q u i r e d a n d Wa i v e d I n t e r e s t ,
Payment Required

nearest $1 (minimum $5)

Deferred Interest, Equal Payment

Purchase amount divided by number of months in promotional

a n d Wa i v e d I n t e r e s t , E q u a l
Payment

period rounded up to nearest $1 (minimum $5)

Low APR, Equal Payment

Purchase amount including calculated interest charges from
purchase date through end of promotional period divided by
number of months in promotional period rounded up to nearest $1
(minimum $5)

Deferred Interest, Low Payment

1% of plan balance at end of billing period rounded up to

and
Wa i v e d I n t e r e s t , L o w P a y m e n t

nearest $1 (minimum $5)

Budget Payment or Open Charge

Monthly payments of $49, $99, $149, $199 or $299, as specified

Budget Payment

in offer based on transaction amount

Open Charge (except Open

Dependent upon above for corresponding Credit Plan

Charge Budget Payment)

If your balance increases during the Open Charge Period, your
Minimum Payment will increase

How to contact us:
Arbitration Claims

Comenity Capital Bank, PO Box 182436, Columbus, OH 43218-2436

Arbitration Rejection

Comenity Capital Bank, PO Box 182422, Columbus, OH 43218-2422

Bankruptcy

Comenity Capital Bank, Bankruptcy Department, PO Box 183043, Columbus,

Notifications

OH 43218-3043

Billing Errors

Comenity Capital Bank, PO Box 182620, Columbus, OH 43218-2620

Credit Reporting
Disputes

Comenity Capital Bank, PO Box 182120, Columbus, OH 43218-2120

Disputed Debts

6550 North Loop 1604 East, Suite 101, San Antonio, TX 78247-5004

General

Credit Card Customer Care:
• Modell's MVP: 1-855-334-3702
• T D D / T T Y: 1 - 8 8 8 - 8 1 9 - 1 9 1 8
• M o d e l l ' s M V P : c o m e n i t y. n e t / m o d e l l s m v p
• Comenity Capital Bank, PO Box 183003, Columbus, OH 43218-3003
When writing, include your name, address, phone number and Account
n u m b e r.

IMPORTANT INFORMATION ABOUT OPENING AN ACCOUNT
To h e l p t h e g o v e r n m e n t f i g h t t h e f u n d i n g o f t e r r o r i s m a n d m o n e y l a u n d e r i n g a c t i v i t i e s , F e d e r a l l a w r e q u i r e s a l l
financial institutions to obtain, verify and record information that identifies each person who opens an account. What
this means for you: When you open an account, we will ask for your name, address, date of birth or other

https://d.comenity.net/modellsmvp/pub/requestCca/requestCca.xhtml

3/18

2/5/2020

Disclosures

information that will allow us to identify you. We may also ask to see your driver's license or other identifying
documents.
C A R e s i d e n t s : I f y o u a r e m a r r i e d , y o u m a y a p p l y f o r a s e p a r a t e a c c o u n t . N Y, R I a n d V T R e s i d e n t s : W e m a y o r d e r
credit reports in connection with processing applications and any update, renewal or extension of credit. Upon
request, we will tell you the name and address of any consumer-reporting agency that furnished a report on you.
Yo u c o n s e n t t o t h e o b t a i n i n g o f s u c h r e p o r t s b y s i g n i n g o r o t h e r w i s e s u b m i t t i n g a n a p p l i c a t i o n o r s o l i c i t a t i o n . O H
Residents: The Ohio laws against discrimination require that all creditors make credit equally available to all
creditworthy customers, and that credit reporting agencies maintain separate credit histories on each individual upon
r e q u e s t . T h e O h i o C i v i l R i g h t s C o m m i s s i o n a d m i n i s t e r s c o m p l i a n c e w i t h t h i s l a w. W I R e s i d e n t s : N o p r o v i s i o n o f a
marital property agreement, unilateral statement under Section 766.59 or court decree under Section 766.70
adversely affects the interest of Comenity Capital Bank unless the Bank, prior to the time credit is granted, is
furnished a copy of the agreement, statement or decree or has actual knowledge of the adverse provision when the
obligation to the Bank is incurred.
I f y o u h a v e b e e n p r e a p p r o v e d , s e e b e l o w f o r d e t a i l s o f y o u r o f f e r.

You can choose to stop receiving "prescreened" offers of credit
from this and other companies by calling toll-free 1-888-567-8688.
See PRESCREEN & OPT-OUT NOTICE below for more information
about prescreened offers.
P R E S C R E E N & O P T- O U T N O T I C E : T h i s " p r e s c r e e n e d " o f f e r o f c r e d i t i s b a s e d o n i n f o r m a t i o n i n y o u r
credit report indicating that you meet certain criteria. This offer is not guaranteed if you do not meet
our criteria. If you do not want to receive prescreened offers of credit from this and other companies,
call the consumer reporting agencies toll-free, 1-888-567-8688; or write: Experian, PO Box 919, Allen,
T X 7 5 0 1 3 ; Tr a n s U n i o n , P O B o x 5 0 5 , W o o d l y n , PA 1 9 0 9 4 ; E q u i f a x , P O B o x 7 4 0 1 2 3 , A t l a n t a , G A 3 0 3 7 4 ;
S a g e S t r e a m , L L C , P O B o x 5 0 3 7 9 3 , S a n D i e g o , C A 9 2 1 5 0 ; I n n o v i s , P O B o x 4 9 5 , P i t t s b u r g h , PA 1 5 2 3 0 0495.

Important Information for Covered Borrowers under the Military Lending Act
For New Accounts- Federal law provides important protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In general, the cost of consumer credit to a member of the
Armed Forces and his or her dependent may not exceed an annual percentage rate of 36 percent. This rate must
include, as applicable to the credit transaction or account: The costs associated with credit insurance premiums;
fees for ancillary products sold in connection with the credit transaction; any application fee charged (other than
certain application fees for specified credit transactions or accounts); and any participation fee charged (other than
certain participation fees for a credit card account)
To h e a r t h i s M i l i t a r y L e n d i n g A c t d i s c l o s u r e a n d t h e p a y m e n t o b l i g a t i o n s t h e r e u n d e r, c a l l t o l l f r e e a t 1 - 8 6 6 - 2 3 0 0 4 1 8 ; ( T D D / T T Y: 1 - 8 8 8 - 8 1 9 - 1 9 1 8 ) .
I a m a p p l y i n g t o C o m e n i t y C a p i t a l B a n k f o r, a n d h e r e b y r e q u e s t , a M o d e l l ' s M V P ® C r e d i t C a r d a c c o u n t f o r p e r s o n a l ,
family or household use. I hereby authorize Comenity Capital Bank to investigate my credit record. The information
that I have supplied is true and correct. I agree that a credit report may be obtained for any lawful purpose,
including in connection with the processing of an application, or subsequently with the update, renewal or extension
of credit. Upon my request, I will be informed of whether or not a consumer credit report was ordered, and if it
was, I will be given the name and address of the consumer-reporting agency that furnished the report. I agree to be
b o u n d b y t h e t e r m s o f t h e Yo u r M o d e l l ' s M V P ® C r e d i t C a r d a c c o u n t a g r e e m e n t . I a c k n o w l e d g e t h a t I w i l l r e c e i v e a
Yo u r M o d e l l ' s M V P ® C r e d i t C a r d a c c o u n t a g r e e m e n t u p o n a p p r o v a l . I a l s o a c k n o w l e d g e t h a t t h e r e i s n o a g r e e m e n t
between Comenity Capital Bank and me until Comenity Capital Bank approves my credit application and accepts the
Yo u r M o d e l l ' s M V P ® C r e d i t C a r d a c c o u n t a g r e e m e n t a t i t s o f f i c e i n U t a h a n d t h a t t h e Yo u r M o d e l l ' s M V P ® C r e d i t
Card account agreement is deemed to be made in Utah. Cards are issued and credit is extended by Comenity
C a p i t a l B a n k , S a l t L a k e C i t y, U t a h .
PLEASE NOTE:
B Y S U B M I T T I N G T H I S C R E D I T A P P L I C AT I O N , Y O U A R E A G R E E I N G T O T H E F O L L O W I N G W I T H R E S P E C T T O
C E R TA I N C O N S U M E R I N F O R M AT I O N A B O U T Y O U .
Yo u h e r e b y a u t h o r i z e C o m e n i t y C a p i t a l B a n k ( " u s " o r " w e " ) t o f u r n i s h o u r d e c i s i o n t o i s s u e a n a c c o u n t t o y o u t o
M o d e l l ' s S p o r t i n g G o o d s , I n c . . Yo u h e r e b y a u t h o r i z e u s t o f u r n i s h , i f y o u r a p p l i c a t i o n i s a p p r o v e d , i n f o r m a t i o n
concerning your account to credit bureaus, other creditors and Modell's Sporting Goods, Inc..
Check your information before submitting. We cannot process any submission without a complete and accurate
n a m e , a d d r e s s , d a t e o f b i r t h a n d s o c i a l s e c u r i t y n u m b e r. B y s u b m i t t i n g t h i s A p p l i c a t i o n y o u a r e a c k n o w l e d g i n g
having read and understood the Important Rate, Fee and Other Cost Information and, if approved, agreeing to be
bound by them.

https://d.comenity.net/modellsmvp/pub/requestCca/requestCca.xhtml

4/18

2/5/2020

Disclosures

Credit Card Agreement
T h i s A g r e e m e n t , i n c l u d i n g t h e S u m m a r y, i s y o u r c o n t r a c t w i t h u s . R e a d i t a n d k e e p i t .
A c c e p t a n c e : Yo u a c c e p t t h i s A g r e e m e n t i f y o u u s e t h e A c c o u n t o r y o u d o n o t c a n c e l y o u r A c c o u n t
w i t h i n 3 0 d a y s a f t e r d e l i v e r y o f t h e A g r e e m e n t . Yo u r s i g n a t u r e o n a n y a p p l i c a t i o n o r s o l i c i t a t i o n f o r t h i s
Account or other evidence of indebtedness on your Account is your signature on this Agreement.
Arbitration: This Agreement includes an Arbitration Provision with class action and jury trial waivers.
Yo u c a n r e j e c t t h e A r b i t r a t i o n P r o v i s i o n . I f y o u d o n o t , i t w i l l b e p a r t o f t h i s A g r e e m e n t .
Changes: The rates, fees and terms of this Agreement may change and we may add or delete any
t e r m . W e w i l l g i v e y o u a d v a n c e n o t i c e a n d a r i g h t t o r e j e c t , i f r e q u i r e d b y l a w.

Definitions
Account: the credit card account with us under this Agreement.
Authorized User: any person you allow to use your Account.
Card: one or more cards or access devices, including your Account number or virtual card, we issue to
you, or someone you authorize, to get credit under this Agreement.
Cash Advance: if applicable, the use of your Account to:
g e t c a s h f r o m a n AT M , f i n a n c i a l i n s t i t u t i o n o r o t h e r l o c a t i o n ;
b u y l o t t e r y t i c k e t s , m o n e y o r d e r s , f o r e i g n c u r r e n c y, g i f t c a r d s o r s i m i l a r i t e m s ;
get cash or pay someone using a check we offer for that purpose;
make any other transaction the merchant codes as a cash advance, money transfer or gambling.
Balance transfers are Cash Advances unless we tell you otherwise.
Credit Plan: each balance subject to different financing terms, such as regular purchases, Cash
Advances, and promotional plans.
Margin: the amount added to the Prime Rate to determine a variable APR.
P r i m e R a t e : t h e U . S . P r i m e R a t e i n t h e M o n e y R a t e s s e c t i o n o f T h e Wa l l S t r e e t J o u r n a l o n t h e l a s t
business day of the calendar month.
We, us or our: the issuer of your Card and its successors and assignees.
Yo u , y o u r o r y o u r s : e a c h p e r s o n w h o s u b m i t s a n a p p l i c a t i o n o r s o l i c i t a t i o n f o r a n A c c o u n t a n d a n y
other person contractually liable under this Agreement.

U s i n g Yo u r A c c o u n t
Yo u r

Yo u a g r e e t o u s e y o u r A c c o u n t i n a c c o r d a n c e w i t h t h i s A g r e e m e n t . Yo u a g r e e t o

Agreement

pay us for all amounts due on your Account, including charges made by Authorized
U s e r s . Yo u a g r e e n o t t o u s e y o u r A c c o u n t f o r i l l e g a l t r a n s a c t i o n s .

Use of Account

Yo u m a y u s e y o u r A c c o u n t t o m a k e p u r c h a s e s a n y w h e r e t h e C a r d i s a c c e p t e d . I f
your Card has the logo of one of our network providers (e.g., Visa and Mastercard),
you may use your Account to make Cash Advances.

Authorized
Users

Yo u m a y r e q u e s t C a r d s f o r A u t h o r i z e d U s e r s . Yo u m u s t n o t i f y u s i f y o u w i s h t o
cancel the authority of an Authorized User to use your Account.

Joint Accounts

If this is a joint Account, each of you agrees to be individually and jointly liable for
the entire amount owed. Any notice we send to either of you will serve as notice to

https://d.comenity.net/modellsmvp/pub/requestCca/requestCca.xhtml

5/18

2/5/2020

Disclosures

both of you.
Credit
Authorizations

We may decline to authorize a transaction for any reason. We will not be liable to
you if we do or if anyone refuses any use of your Card.

Credit Limit

We will tell you your credit limit or limits. Keep your balance below your credit limit
or limits. If you do not, you must still pay us. We may change your credit limit or
limits at any time, without notice.

Promotional
Credit Plans

We may offer special financing terms, such as deferred interest, waived interest,
low APR or equal payment options. The Credit Plan or Plans will be subject to the
terms of the offer and this Agreement.

Electronic
Access

Applications (apps) on electronic devices (such as mobile wallets) can store your
Card and be used to get credit under this Agreement. Such transactions are
covered by this Agreement. Apps may have separate terms of use. We are not
responsible for any consequences from your violation of those terms.

APRs and Interest Based on APRs
Review your Summary for the APRs that apply to your Account
We add the applicable Margin specified in the Rate Information chart on the
S u m m a r y t o t h e P r i m e R a t e t o d e t e r m i n e Va r i a b l e A P R s . Va r i a b l e A P R s i n c r e a s e o r
Va r i a b l e A P R s

decrease when the Prime Rate changes but will not exceed any Maximum APR
specified in the Rate Information chart.
Any APR change will take effect on the first day of the billing period that begins
after the Prime Rate changes. Increased APRs will increase your interest charges
and may increase your Minimum Payment.

Daily Balance

We calculate interest for each Credit Plan each day by applying the applicable daily

Method
(including

periodic rate to the daily balance. The daily periodic rate is the APR for the Credit
Plan divided by 365.

current
transactions)

We start with the beginning balance each day (including unpaid interest and fees).
We add new transactions and fees to the applicable Credit Plan. We add
transaction fees to the same Credit Plan as the transaction. We add all other fees
to the regular purchase Credit Plan.
We subtract new credits and payments from the applicable Credit Plan and make
other adjustments to get the partial daily balance.
We multiply the partial daily balance by the daily periodic rate to get the daily
interest.
We add the daily interest to the partial daily balance to get the daily balance. This
results in daily compounding of interest.
We add all the daily interest to get the total interest for the Credit Plan for the
billing period. For a Deferred Interest Credit Plan, this interest is deferred.
We round interest to the nearest cent.

Interest

Charging Interest: Interest begins on a transaction, fee or interest from the day
added to the daily balance until paid in full.
H o w t o Av o i d P a y i n g I n t e r e s t o n R e g u l a r P u r c h a s e s ( G r a c e P e r i o d ) : I f y o u d i d
not have a Previous Balance, or if you paid the New Balance on your previous
statement by the Due Date on that statement, we will not charge interest on new
regular purchases, or any portion thereof, paid by the Due Date on your current
statement.
H o w W e A p p l y P a y m e n t s M a y I m p a c t Yo u r G r a c e P e r i o d : I f y o u d o n o t p a y y o u r
New Balance in full each billing period, then, depending on how we apply your
payment, you may not get a Grace Period on new regular purchases.

https://d.comenity.net/modellsmvp/pub/requestCca/requestCca.xhtml

6/18

2/5/2020

Disclosures

Wa i v e d I n t e r e s t C r e d i t P l a n : W e d o n o t i m p o s e i n t e r e s t o n p l a n b a l a n c e s d u r i n g
the promotional period. After the promotional period, any remaining balance is
added to the regular purchase balance and is subject to interest at the then-current
rate for regular purchases.
Deferred Interest Credit Plan: Interest accrues on plan balances from the
transaction date. We do not impose that interest if you pay the balance in full by
the end of the promotional period. After the promotional period, any remaining
balance and interest from the transaction date is added to the regular purchase
balance and is subject to interest at the then-current rate for regular purchases.

Payments
We credit payments in accordance with the terms on your statement. Review your
Payment

statement for details.

Instructions

Pay in U.S. dollars, in funds on deposit in the U.S. If you don’t, we may refuse
your payment or charge you our costs to collect the funds.

How We Apply

We apply payments up to the Minimum Payment at our discretion, which may result

Payments

in balances at lower APRs being paid first and higher interest charges. Payments
o v e r t h e M i n i m u m P a y m e n t w i l l b e a p p l i e d i n a c c o r d a n c e w i t h l a w.

Other Information
Yo u a r e i n d e f a u l t i f :
• you fail to comply with this Agreement or any other agreement with us or an
affiliate;
• a bankruptcy or other insolvency proceeding is filed by or against you;
Default

• we reasonably believe you are unable or unwilling to repay us;
• you die or are legally incompetent or incapacitated;
• you give us misleading, false, incomplete or incorrect information or fail to give
u s a n y i n f o r m a t i o n w e d e e m n e c e s s a r y.
If you are in default, we may declare the entire balance immediately due and
payable without notice.

Collection

If we use an attorney to collect your Account, we may charge you our costs if and

Costs

a s p e r m i t t e d b y l a w. T h e s e m a y i n c l u d e r e a s o n a b l e a t t o r n e y s ’ f e e s a n d c o u r t c o s t s .

Privacy Policy

Yo u a u t h o r i z e u s t o s h a r e i n f o r m a t i o n a b o u t y o u a n d y o u r A c c o u n t a s p e r m i t t e d b y
l a w. R e v i e w o u r P r i v a c y S t a t e m e n t f o r d e t a i l s a b o u t o u r i n f o r m a t i o n s h a r i n g
practices.

Credit

We may check your credit, employment and income records in connection with an

Reporting

application, update, renewal or extension of credit on your Account (including
c o l l e c t i o n s a n d d i s p u t e i n v e s t i g a t i o n s ) . Yo u c o n s e n t t o o u r o b t a i n i n g s u c h r e c o r d s
by submitting an application or solicitation. Upon request, we will tell you the name
and address of any credit reporting agency that furnished a report on you. We may
report Account status and payment history to credit reporting agencies, other
creditors and the company whose name or brand appears on your Card.

Unauthorized

Notify us immediately at the General mailing address or phone number in the How

Use

to Contact Us section of the Summary and assist us in our investigation if your
Card is lost or stolen or you believe someone is using your Card without your
permission.

C l o s i n g Yo u r

Yo u m a y c l o s e y o u r A c c o u n t a t a n y t i m e . Yo u r e m a i n r e s p o n s i b l e f o r a n y a m o u n t

Account

owed under this Agreement. We may close, suspend or not renew your Account at
any time, for any reason, without notice.

https://d.comenity.net/modellsmvp/pub/requestCca/requestCca.xhtml

7/18

2/5/2020

Foreign
Tr a n s a c t i o n s

Disclosures

If applicable, transactions in foreign currency are converted to U.S. dollars by our
network providers (e.g., Visa and Mastercard) using their procedures in effect when
t h e t r a n s a c t i o n i s p r o c e s s e d . C u r r e n t l y, t h e y u s e a g o v e r n m e n t - m a n d a t e d o r
wholesale rate. These procedures may change without notice.
The conversion rate you get may differ from the rate on the transaction or post
date and from the rate our network provider gets. A third party may convert a
t r a n s a c t i o n i n t o U . S . d o l l a r s o r a n o t h e r c u r r e n c y, u s i n g a r a t e t h e y s e l e c t , b e f o r e
s e n d i n g i t t o o u r n e t w o r k p r o v i d e r.
F o r a n y t r a n s a c t i o n m a d e o r p r o c e s s e d o u t s i d e t h e U . S . o r i n a f o r e i g n c u r r e n c y,
w e c h a r g e a f e e i n t h e a m o u n t o n t h e S u m m a r y.

Conformance
with Law;

I f a n y p a r t o f t h i s A g r e e m e n t c o n f l i c t s w i t h a p p l i c a b l e l a w, t h a t p r o v i s i o n w i l l b e
c o n s i d e r e d m o d i f i e d t o c o n f o r m t o a p p l i c a b l e l a w. I f a n y p a r t o f t h i s A g r e e m e n t i s

Severability

invalid, the rest shall remain in effect, except as otherwise noted in the Arbitration
Provision.

N o Wa i v e r

We will not lose our rights under this Agreement because we delay or do not
enforce them.

Assignment

We may assign any or all of our rights and obligations under this Agreement to a
t h i r d p a r t y. Yo u m a y n o t a s s i g n a n y o f y o u r r i g h t s o r o b l i g a t i o n s u n d e r t h i s
Agreement.

New Jersey
Residents

All provisions of this agreement are valid, enforceable and applicable in New
J e r s e y.

Communications with Us
M o n i t o r i n g a n d R e c o r d i n g : Yo u r c o m m u n i c a t i o n s w i t h u s a n d o u r a f f i l i a t e s , s e r v i c e r s , a g e n t s a n d
contractors may be monitored or recorded. Inform Authorized Users and persons acting on your behalf
or making payments on this Account of this provision.
C o m m u n i c a t i o n A u t h o r i z a t i o n : Yo u g i v e d i r e c t c o n s e n t t o u s a n d o u r a f f i l i a t e s , s e r v i c e r s , a g e n t s a n d
contractors, including collection agents, to communicate with you in any way to service or collect your
Account, such as calling, texting or email via:
any phone number you give us even if the number is or converts to a mobile phone number;
any other number you provide, use to contact us or may utilize;
a n y o t h e r d e v i c e o r s e r v i c e f o r w h i c h y o u m a y b e c h a r g e d f o r t h e c a l l , i n c l u d i n g Vo i c e O v e r I n t e r n e t
Protocol (VOIP); and
any email address you provide to us or any other person or company that provides any services in
connection with this Agreement.
S u b j e c t t o a n y r e s t r i c t i o n s o f a p p l i c a b l e l a w, w e m a y c o n t a c t y o u u s i n g a u t o m a t e d t e l e p h o n e d i a l i n g
systems and/or pre-recorded or artificial voice messages and any other form of communication.
Communications may result in additional mobile, text message, data or other charges.
Yo u m a y c h a n g e y o u r p r e f e r e n c e s b y c a l l i n g t h e G e n e r a l p h o n e n u m b e r o n t h e S u m m a r y.
Disputed Debts: All written communications about disputed amounts, including any check or payment
i n s t r u m e n t m a r k e d " p a y m e n t i n f u l l " o r s i m i l a r, m u s t b e s e n t t o t h e a d d r e s s f o r D i s p u t e d D e b t s o n t h e
S u m m a r y. W e m a y a c c e p t p a y m e n t s s e n t t o a n y o t h e r a d d r e s s w i t h o u t l o s i n g o u r r i g h t s .
Bankruptcy Notifications: Send bankruptcy notices and related correspondence to the address for
B a n k r u p t c y N o t i f i c a t i o n s o n t h e S u m m a r y.
C h a n g e s : Yo u a g r e e t o n o t i f y u s a t t h e G e n e r a l p h o n e n u m b e r o r a d d r e s s o n t h e S u m m a r y o r b y
updating your information on Account Center immediately upon changing your name, email address,
https://d.comenity.net/modellsmvp/pub/requestCca/requestCca.xhtml

8/18

2/5/2020

Disclosures

m a i l i n g a d d r e s s o r p h o n e n u m b e r.
C o m m u n i c a t i o n i n L a n g u a g e s O t h e r T h a n E n g l i s h : Yo u a g r e e t o r e c e i v e a l l A c c o u n t c o m m u n i c a t i o n s
i n E n g l i s h . W e m a y, a t o u r o p t i o n , c o m m u n i c a t e w i t h y o u i n o t h e r l a n g u a g e s a s a c o u r t e s y. W e m a y
stop communicating with you in non-English languages at any time. While we try to ensure accuracy of
translations, we are not responsible for any inaccuracies in translation or misunderstandings due to
differences in usage or dialect. In the event of inconsistency between the English version and the
translation, the English version will control.

Notice for Active Duty Military Members and Their Dependents
The following disclosures apply to you if, in connection with opening your Account, we determine you
are a “covered borrower” as defined in the Military Lending Act, which includes eligible active duty
members of the Armed Forces and their dependents:
T h e p r o v i s i o n o f t h i s A g r e e m e n t t i t l e d “ A r b i t r a t i o n a n d J u r y Tr i a l Wa i v e r ” d o e s n o t a p p l y t o y o u .
Federal law provides important protections to members of the Armed Forces and their dependents
relating to extensions of consumer credit. In general, the cost of consumer credit to a member of the
Armed Forces and his or her dependent may not exceed an annual percentage rate of 36 percent.
This rate must include, as applicable to the credit transaction or account: The costs associated with
credit insurance premiums; fees for ancillary products sold in connection with the credit transaction;
any application fee charged (other than certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain participation fees for a credit card
account).
To h e a r i n f o r m a t i o n a b o u t t h e s e p r o t e c t i o n s a n d a d e s c r i p t i o n o f y o u r p a y m e n t o b l i g a t i o n s , c a l l t o l l
free at 1-866-230-0418 (or at the General TDD/TTY number on the Summary).

A r b i t r a t i o n a n d J u r y Tr i a l Wa i v e r
P l e a s e r e v i e w t h e f o l l o w i n g i m p o r t a n t p r o v i s i o n s c a r e f u l l y. P a y s p e c i a l
attention to Paragraphs:
• A : J u r y Tr i a l Wa i v e r ;
Key Provisions

• C: Arbitration Provision;
• C.1: Right to Reject;
• C . 6 : C o u r t a n d J u r y Tr i a l s P r o h i b i t e d ; O t h e r L i m i t a t i o n s o n L e g a l R i g h t s ; a n d
• C . 7 : C l a s s A c t i o n Wa i v e r.

A . J u r y Tr i a l

To t h e e x t e n t p e r m i t t e d b y l a w, y o u a n d w e w a i v e a n y r i g h t t o t r i a l b y j u r y i n

Wa i v e r

the event of a lawsuit arising out of or related to this Agreement. This jury
trial waiver shall not affect the Arbitration Provision below (including the jury
t r i a l w a i v e r c o n t a i n e d t h e r e i n ) . Yo u a n d w e e a c h r e p r e s e n t t h a t t h i s w a i v e r i s
g i v e n k n o w i n g l y, w i l l i n g l y a n d v o l u n t a r i l y.

B. Notice and

Prior to bringing a lawsuit or initiating an arbitration that asserts a claim arising out

Cure

o f o r r e l a t e d t o t h i s A g r e e m e n t ( a s f u r t h e r d e f i n e d b e l o w, " C l a i m " ) , t h e p a r t y
asserting the Claim ("Claimant") shall give the other party ("Defendant") written
n o t i c e o f t h e C l a i m ( " C l a i m N o t i c e " ) a n d a r e a s o n a b l e o p p o r t u n i t y, n o t l e s s t h a n 3 0
days, to resolve the Claim. Any Claim Notice to you shall be sent to the address
we have in our records (or any updated address you subsequently provide to us).
Any Claim Notice to us shall be sent by mail to the address for Arbitration Claims
on the Summary (or any updated address we subsequently provide). Any Claim
Notice you send must provide your name, address and Account number and explain
t h e n a t u r e o f t h e C l a i m a n d r e l i e f d e m a n d e d . Yo u m a y o n l y s u b m i t a C l a i m N o t i c e
o n y o u r o w n b e h a l f a n d n o t o n b e h a l f o f a n y o t h e r p a r t y. N o t h i r d p a r t y, o t h e r t h a n
a lawyer you have personally retained, may submit a Claim Notice on your behalf.

https://d.comenity.net/modellsmvp/pub/requestCca/requestCca.xhtml

9/18

2/5/2020

Disclosures

The Claimant must reasonably cooperate in providing any information about the
Claim that the Defendant reasonably requests.
C. Arbitration

R e v i e w t h i s p r o v i s i o n c a r e f u l l y. I f y o u d o n o t r e j e c t i t i n a c c o r d a n c e w i t h

Provision

P a r a g r a p h C . 1 , R i g h t t o R e j e c t , b e l o w, i t w i l l b e p a r t o f t h i s A g r e e m e n t a n d w i l l
have a substantial impact on the way you or we will resolve any Claim you or
we have against each other now or in the future.

1. Right to

If you don’t want this Arbitration Provision (and any prior arbitration

Reject

a g r e e m e n t b e t w e e n y o u a n d u s ( " P r i o r A r b i t r a t i o n A g r e e m e n t " ) ) t o a p p l y, y o u
may reject it by mailing us a written rejection notice which gives your name
and contains a statement that you (both of you, if more than one) reject the
Arbitration Provision of this Agreement. The rejection notice must be sent to
u s a t t h e a d d r e s s f o r A r b i t r a t i o n R e j e c t i o n o n t h e S u m m a r y. A r e j e c t i o n n o t i c e
is only effective if it is signed by you (all of you, if more than one) and if we
receive it within 30 calendar days after the date we first provide you with a
credit card agreement or written notice providing you a right to reject this
A r b i t r a t i o n P r o v i s i o n . Yo u r r e j e c t i o n o f t h i s A r b i t r a t i o n P r o v i s i o n w i l l n o t a f f e c t
any other provision of this Agreement or your ability to obtain credit.

2. Parties

Solely as used in this Arbitration Provision (and not elsewhere in this Agreement),
the terms "we," "us" and "our" mean
a. the issuer of your Card named on the Summary and its successors and/or
assigns, as well as any parent, subsidiary or affiliate of theirs and their employees,
officers and directors (the "Bank Parties"); and
b. any other person or company that provides any services in connection with this
Agreement if you assert a Claim against such other person or company at the same
t i m e y o u a s s e r t a C l a i m a g a i n s t a n y B a n k P a r t y.

3. Covered

"Claim" means any claim, dispute or controversy between you and us that in any

Claims

way arises from or relates to this Agreement, the Account, the issuance of any
Card, any rewards program and/or any prior agreement or account. "Claim" includes
disputes arising from actions or omissions prior to the date any Card was issued to
you, including the advertising related to, application for or approval of the Account.
"Claim" has the broadest possible meaning, and includes initial claims,
counterclaims, cross-claims and third-party claims. It includes disputes based on
contract, tort, consumer rights, fraud and other intentional torts, constitution,
statute, regulation, ordinance, common law and equity (including any claim for
i n j u n c t i v e o r d e c l a r a t o r y r e l i e f ) . " C l a i m " d o e s n o t i n c l u d e d i s p u t e s a b o u t t h e v a l i d i t y,
e n f o r c e a b i l i t y, c o v e r a g e o r s c o p e o f t h i s A r b i t r a t i o n P r o v i s i o n o r a n y p a r t t h e r e o f
(including, without limitation, the prohibition against class proceedings, private
attorney general proceedings and/or multiple party proceedings described in
P a r a g r a p h C . 7 , P r o h i b i t i o n s A g a i n s t C e r t a i n P r o c e e d i n g s ( C l a s s A c t i o n Wa i v e r ) ,
P a r a g r a p h C . 1 3 , S e v e r a b i l i t y, a n d / o r t h i s s e n t e n c e ) ; a l l s u c h d i s p u t e s a r e f o r a
c o u r t a n d n o t a n a r b i t r a t o r t o d e c i d e . H o w e v e r, a n y d i s p u t e o r a r g u m e n t t h a t
concerns the validity or enforceability of the Agreement as a whole is for the
a r b i t r a t o r, n o t a c o u r t , t o d e c i d e .

4. Starting an

Arbitration may be elected by any party with respect to any Claim, even if that

Arbitration

party has already initiated a lawsuit with respect to a different Claim. Arbitration is
s t a r t e d b y g i v i n g a w r i t t e n d e m a n d f o r a r b i t r a t i o n t o t h e o t h e r p a r t y. W e w i l l n o t
demand to arbitrate an individual Claim that you bring against us in small claims
c o u r t o r y o u r s t a t e ’ s e q u i v a l e n t c o u r t , i f a n y. B u t i f t h a t C l a i m i s t r a n s f e r r e d ,
removed or appealed to a different court, we then have the right to demand
arbitration.

https://d.comenity.net/modellsmvp/pub/requestCca/requestCca.xhtml

10/18

2/5/2020

5. Administrator

Disclosures

" A d m i n i s t r a t o r " m e a n s t h e A m e r i c a n A r b i t r a t i o n A s s o c i a t i o n ( " A A A " ) , 1 2 0 B r o a d w a y,
2 1 s t F l o o r, N e w Yo r k , N Y 1 0 2 7 1 , w w w. a d r. o r g ; J A M S , 6 2 0 E i g h t h A v e n u e , 3 4 t h
F l o o r, N e w Yo r k , N Y 1 0 0 1 8 , w w w. j a m s a d r. c o m ; o r a n y o t h e r c o m p a n y s e l e c t e d b y
mutual agreement of the parties. If both AAA and JAMS cannot or will not serve
and the parties are unable to select an Administrator by mutual consent, the
Administrator will be selected by a court. The arbitrator will be appointed by the
A d m i n i s t r a t o r i n a c c o r d a n c e w i t h t h e r u l e s o f t h e A d m i n i s t r a t o r. H o w e v e r, t h e
arbitrator must be a retired or former judge or a lawyer with at least 10 years of
e x p e r i e n c e . Yo u g e t t o s e l e c t t h e A d m i n i s t r a t o r i f y o u g i v e u s w r i t t e n n o t i c e o f y o u r
selection with your notice that you are electing to arbitrate any Claim or within 20
d a y s a f t e r w e g i v e y o u n o t i c e t h a t w e a r e e l e c t i n g t o a r b i t r a t e a n y C l a i m ( o r, i f y o u
dispute our right to require arbitration of the Claim, within 20 days after that
dispute is finally resolved). If you do not select the Administrator on time, we may
d o i t . N o t w i t h s t a n d i n g a n y l a n g u a g e i n t h i s A r b i t r a t i o n P r o v i s i o n t o t h e c o n t r a r y, n o
arbitration may be administered without the consent of all parties to the arbitration,
by any Administrator that has in place a formal or informal policy that is
i n c o n s i s t e n t w i t h t h e C l a s s A c t i o n Wa i v e r.

6. Court and

If you or we elect to arbitrate a Claim, you will not have the right to pursue

J u r y Tr i a l s

that Claim in court or have a jury decide the Claim. Also, your ability to obtain

Prohibited;

information from us is more limited in arbitration than in a lawsuit. Other

Other
Limitations on

rights that you would have if you went to court may also not be available in
arbitration.

Legal Rights
7. Prohibition
Against Certain

If you or we elect to arbitrate a Claim:
a. neither you nor we may participate in a class action in court or in class-

Proceedings

wide arbitration, either as a plaintiff, defendant or class member;

(Class Action
Wa i v e r )

b. neither you nor we may act as a private attorney general in court or in
arbitration;
c. Claims brought by or against you may not be joined or consolidated with
Claims brought by or against any other person; and
d. the arbitrator shall have no power or authority to conduct a class-wide
arbitration, private attorney general arbitration or multiple-party arbitration.

8. Location and

Any arbitration hearing that you attend must take place at a location reasonably

Costs

convenient to you. We will pay any and all fees of the Administrator and/or the
arbitrator if applicable law requires us to, if you prevail in the arbitration or if we
must bear such fees in order for this Arbitration Provision to be enforced. If you
demand an arbitration, we will pay your reasonable attorneys’ and experts’ fees if
you prevail or if we must bear such fees in order for this Arbitration Provision to
be enforced. Also, we will bear any fees if applicable law requires us to.

9. Governing
Law

This Arbitration Provision involves interstate commerce and is governed by the
F e d e r a l A r b i t r a t i o n A c t , 9 U . S . C . § § 1 - 1 6 ( " FA A " ) , a n d n o t b y a n y s t a t e a r b i t r a t i o n
l a w. T h e a r b i t r a t o r m u s t a p p l y a p p l i c a b l e s u b s t a n t i v e l a w c o n s i s t e n t w i t h t h e FA A
a n d a p p l i c a b l e s t a t u t e s o f l i m i t a t i o n s a n d c l a i m s o f p r i v i l e g e r e c o g n i z e d a t l a w. T h e
arbitrator may award any remedy provided by the substantive law that would apply
if the action were pending in court (including, without limitation, punitive damages,
which shall be governed by the Constitutional standards employed by the courts). At
t h e t i m e l y r e q u e s t o f e i t h e r p a r t y, t h e a r b i t r a t o r m u s t p r o v i d e a b r i e f w r i t t e n
explanation of the basis for the award.

10. Discovery

In addition to the parties’ rights to obtain discovery pursuant to the arbitration rules
o f t h e A d m i n i s t r a t o r, e i t h e r p a r t y m a y s u b m i t a w r i t t e n r e q u e s t t o t h e a r b i t r a t o r t o

https://d.comenity.net/modellsmvp/pub/requestCca/requestCca.xhtml

11/18

2/5/2020

Disclosures

expand the scope of discovery normally allowable under the arbitration rules of the
A d m i n i s t r a t o r. T h e a r b i t r a t o r s h a l l h a v e d i s c r e t i o n t o g r a n t o r d e n y t h a t r e q u e s t .
11 . R e s u l t a n d

Judgment upon the arbitrator ’s award may be entered by any court having

Appeals

jurisdiction. The arbitrator ’s decision is final and binding, except for any right of
a p p e a l p r o v i d e d b y t h e FA A a n d / o r t h e r u l e s o f t h e A d m i n i s t r a t o r. A n y f i n d i n g ,
award or judgment from an arbitration of any Claim shall apply only to that
arbitration. No finding, award or judgment from any other arbitration shall impact
the arbitration of any Claim.

12.
Interpretation

This Arbitration Provision shall survive the repayment of all amounts owed under
this Agreement, the closing of the Account, any legal proceeding and any
b a n k r u p t c y t o t h e e x t e n t c o n s i s t e n t w i t h a p p l i c a b l e b a n k r u p t c y l a w. I n t h e e v e n t o f
a conflict or inconsistency between this Arbitration Provision and the applicable
arbitration rules or the other provisions of this Agreement, this Arbitration Provision
shall govern. This Arbitration Provision replaces any Prior Arbitration Agreement.

13. Severability

If any portion of this Arbitration Provision is held to be invalid or unenforceable,
the remaining portions shall nevertheless remain in force, subject to two exceptions.
F i r s t , i f a d e t e r m i n a t i o n i s m a d e t h a t t h e C l a s s A c t i o n Wa i v e r i s u n e n f o r c e a b l e , a n d
that determination is not reversed on appeal, then the Arbitration Provision shall be
v o i d i n i t s e n t i r e t y. S e c o n d , i f a c o u r t d e t e r m i n e s t h a t a p u b l i c i n j u n c t i v e r e l i e f
C l a i m m a y p r o c e e d n o t w i t h s t a n d i n g t h e C l a s s A c t i o n Wa i v e r, a n d t h a t d e t e r m i n a t i o n
is not reversed on appeal, then the public injunctive relief Claim will be decided by
a court, any individual Claims will be arbitrated, and the parties will ask the court
to stay the public injunctive relief Claim until the other Claims have been finally
concluded.

14. Special

The arbitrator shall award you at least $5,100 (plus any fees and costs to which

Payment

you are entitled) if:
a. you submit a Claim Notice in accordance with Paragraph B, Notice and Cure,
above on your own behalf (and not on behalf of any other party);
b. we refuse to provide you with the relief you request before an arbitrator is
appointed; and
c. an arbitrator subsequently determines that you were entitled to such relief (or
greater relief).

Yo u r B i l l i n g R i g h t s : K e e p T h i s D o c u m e n t F o r F u t u r e U s e
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
W h a t To D o I f Yo u F i n d A M i s t a k e O n Yo u r S t a t e m e n t
If you think there is an error on your statement, write to us at the address for Billing Errors on the
Summary
I n y o u r l e t t e r, g i v e u s t h e f o l l o w i n g i n f o r m a t i o n :
A c c o u n t i n f o r m a t i o n : Yo u r n a m e a n d a c c o u n t n u m b e r.
D o l l a r a m o u n t : T h e d o l l a r a m o u n t o f t h e s u s p e c t e d e r r o r.
Description of problem: If you think there is an error on your bill, describe what you believe is wrong
and why you believe it is a mistake.
Yo u m u s t c o n t a c t u s :
Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is scheduled, if you want to stop payment on
the amount you think is wrong.
https://d.comenity.net/modellsmvp/pub/requestCca/requestCca.xhtml

12/18

2/5/2020

Disclosures

Yo u m u s t n o t i f y u s o f a n y p o t e n t i a l e r r o r s i n w r i t i n g . Yo u m a y c a l l u s , b u t i f y o u d o w e a r e n o t
required to investigate any potential errors and you may have to pay the amount in question.
W h a t W i l l H a p p e n A f t e r W e R e c e i v e Yo u r L e t t e r
W h e n w e r e c e i v e y o u r l e t t e r, w e m u s t d o t w o t h i n g s :
1 . W i t h i n 3 0 d a y s o f r e c e i v i n g y o u r l e t t e r, w e m u s t t e l l y o u t h a t w e r e c e i v e d y o u r l e t t e r. W e w i l l a l s o
t e l l y o u i f w e h a v e a l r e a d y c o r r e c t e d t h e e r r o r.
2 . W i t h i n 9 0 d a y s o f r e c e i v i n g y o u r l e t t e r, w e m u s t e i t h e r c o r r e c t t h e e r r o r o r e x p l a i n t o y o u w h y w e
believe the bill is correct.
While we investigate whether or not there has been an error:
We cannot try to collect the amount in question, or report you as delinquent on that amount.
The charge in question may remain on your statement, and we may continue to charge you interest
on that amount.
While you do not have to pay the amount in question, you are responsible for the remainder of your
balance.
We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
I f w e m a d e a m i s t a k e : Yo u w i l l n o t h a v e t o p a y t h e a m o u n t i n q u e s t i o n o r a n y i n t e r e s t o r o t h e r f e e s
related to that amount.
I f w e d o n o t b e l i e v e t h e r e w a s a m i s t a k e : Yo u w i l l h a v e t o p a y t h e a m o u n t i n q u e s t i o n , a l o n g w i t h
applicable interest and fees. We will send you a statement of the amount you owe and the date
payment is due. We may then report you as delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days
t e l l i n g u s t h a t y o u s t i l l r e f u s e t o p a y. I f y o u d o s o , w e c a n n o t r e p o r t y o u a s d e l i n q u e n t w i t h o u t a l s o
reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know when the matter has been settled
between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you
question even if your bill is correct.
Yo u r R i g h t s I f Yo u A r e D i s s a t i s f i e d W i t h Yo u r C r e d i t C a r d P u r c h a s e s
If you are dissatisfied with the goods or services that you have purchased with your credit card, and
you have tried in good faith to correct the problem with the merchant, you may have the right not to
pay the remaining amount due on the purchase.
To u s e t h i s r i g h t , a l l o f t h e f o l l o w i n g m u s t b e t r u e :
1. The purchase must have been made in your home state or within 100 miles of your current mailing
address, and the purchase price must have been more than $50. (Note: Neither of these are necessary
if your purchase was based on an advertisement we mailed to you, or if we own the company that sold
you the goods or services.)
2 . Yo u m u s t h a v e u s e d y o u r c r e d i t c a r d f o r t h e p u r c h a s e . P u r c h a s e s m a d e w i t h c a s h a d v a n c e s f r o m a n
AT M o r w i t h a c h e c k t h a t a c c e s s e s y o u r c r e d i t c a r d a c c o u n t d o n o t q u a l i f y.
3 . Yo u m u s t n o t y e t h a v e f u l l y p a i d f o r t h e p u r c h a s e .
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in
w r i t i n g a t t h e a d d r e s s f o r B i l l i n g E r r o r s o n t h e S u m m a r y.

https://d.comenity.net/modellsmvp/pub/requestCca/requestCca.xhtml

13/18

2/5/2020

Disclosures

While we investigate, the same rules apply to the disputed amount as discussed above. After we finish
our investigation, we will tell you our decision. At that point, if we think you owe an amount and you
d o n o t p a y, w e m a y r e p o r t y o u a s d e l i n q u e n t .

Pricing Addendum
Interest Rates
and Interest
Charges
Annual Percentage
Rate (APR) for
Purchases

Prime Rate plus

23.74%

This APR will vary with the market based on the Prime Rate.

H o w t o Av o i d P a y i n g

Yo u r d u e d a t e i s a t l e a s t 2 5 d a y s a f t e r t h e c l o s e o f e a c h b i l l i n g

Interest

period. We will not charge you interest on purchases if you pay
your entire balance by the due date each month.

Minimum Interest

If you are charged interest, the charge will be no less than $2 per

Charge

credit plan.

Fees
Annual Fee

None

Penalty Fees
• Late Payment

Up to $40

• Returned Payment

Up to $40

Balance Computation

We use a method called "daily balance."

Method

Financial Privacy Policy
Printer-friendly version (PDF)
Yo u n e e d A d o b e R e a d e r t o v i e w P D F f i l e s . Yo u m a y d o w n l o a d i t f o r f r e e f r o m A d o b e .
r e v. 0 8 / 1 9

FACTS
WHAT DOES COMENITY DO WITH YOUR PERSONAL
INFORMATION?

Why?

https://d.comenity.net/modellsmvp/pub/requestCca/requestCca.xhtml

14/18

2/5/2020

Disclosures

Financial companies choose how they share your personal information. Federal law gives consumers the right to
limit some but not all sharing. Federal law also requires us to tell you how we collect, share, and protect your
personal information. Please read this notice carefully to understand what we do.

What?
The types of personal information we collect and share depend on the product or service you have with us. This
information can include:
Social Security number and income
Account balances and transaction history
Credit history and credit scores

How?
All financial companies need to share customers' personal information to run their everyday business. In the
s e c t i o n b e l o w, w e l i s t t h e r e a s o n s f i n a n c i a l c o m p a n i e s c a n s h a r e t h e i r c u s t o m e r s ' p e r s o n a l i n f o r m a t i o n ; t h e
reasons Comenity chooses to share; and whether you can limit this sharing.

Reasons we can share your personal information
For our everyday business purposes-such as to process your transactions, maintain your account(s), respond
to court orders and legal investigations, or report to credit bureaus

Ye s

No

For our marketing purposes-to offer our products and services to you

Ye s

No

For joint marketing with other financial companies

Ye s

No

For our affiliates' everyday business purposes-information about your transactions and experiences

https://d.comenity.net/modellsmvp/pub/requestCca/requestCca.xhtml

15/18

2/5/2020

Disclosures

Ye s

No

For our affiliates' everyday business purposes-information about your creditworthiness

Ye s

Ye s

For our affiliates to market to you

Ye s

Ye s

For nonaffiliates to market to you

Ye s

Ye s

To limit our sharing
Our menu will prompt you through your choices:
C o m e n i t y B a n k c u s t o m e r s : C a l l 1 - 8 0 0 - 2 2 0 - 11 8 1 ( T D D / T T Y 1 - 8 0 0 - 6 9 5 - 1 7 8 8 )
Comenity Capital Bank customers: Call 1-877-287-5012 (TDD/TTY 1-888-819-1918)
Please note:
I f y o u a r e a n e w c u s t o m e r, w e c a n b e g i n s h a r i n g y o u r i n f o r m a t i o n 3 0 d a y s f r o m t h e d a t e w e s e n t t h i s n o t i c e .
W h e n y o u a r e n o l o n g e r o u r c u s t o m e r, w e c o n t i n u e t o s h a r e y o u r i n f o r m a t i o n a s d e s c r i b e d i n t h i s n o t i c e .
H o w e v e r, y o u c a n c o n t a c t u s a t a n y t i m e t o l i m i t o u r s h a r i n g .

Questions?
Call 1-866-423-1097

Who we are

https://d.comenity.net/modellsmvp/pub/requestCca/requestCca.xhtml

16/18

2/5/2020

Disclosures

Who is providing this notice?
This privacy notice is provided by the Comenity family of companies, including Comenity Bank and Comenity
Capital Bank.

What we do
How does Comenity protect my personal information?
To p r o t e c t y o u r p e r s o n a l i n f o r m a t i o n f r o m u n a u t h o r i z e d a c c e s s a n d u s e , w e u s e s e c u r i t y m e a s u r e s t h a t c o m p l y
w i t h f e d e r a l l a w. T h e s e m e a s u r e s i n c l u d e c o m p u t e r s a f e g u a r d s a n d s e c u r e d f i l e s a n d b u i l d i n g s .
How does Comenity collect my personal information?
We collect your personal information, for example, when you
open an account or provide account information
give us your income information
use your credit or show your driver's license
We also collect your personal information from others, such as credit bureaus, affiliates, or other companies.
Why can't I limit all sharing?
Federal law gives you the right to limit only
sharing for affiliates' everyday business purposes-information about your creditworthiness
affiliates from using your information to market to you
sharing for nonaffiliates to market to you
State laws and individual companies may give you additional rights to limit sharing. See below for more on
y o u r r i g h t s u n d e r s t a t e l a w.
What happens when I limit sharing for an account I hold jointly with someone else?
Yo u r c h o i c e s w i l l a p p l y t o e v e r y o n e o n y o u r a c c o u n t .

Definitions
Affiliates
Companies related by common ownership or control. They can be financial and nonfinancial companies.
Our affiliates include companies with a Comenity name; financial companies such as Comenity Bank,
Comenity Capital Bank, and other Comenity entities; nonfinancial companies such as Alliance Data, and
LoyaltyOne.

Nonaffiliates
Companies not related by common ownership or control. They can be financial and nonfinancial companies.
Nonaffiliates we share with can include financial service providers, retailers, direct marketers, publishers,
and nonprofit organizations.

https://d.comenity.net/modellsmvp/pub/requestCca/requestCca.xhtml

17/18

2/5/2020

Disclosures

Joint marketing
A formal agreement between nonaffiliated financial companies that together market financial products or
services to you.
Our joint marketing partners may include lenders and insurance companies.

Other important information
W e a l s o w i l l c o m p l y w i t h m o r e r e s t r i c t i v e s t a t e l a w s t o t h e e x t e n t t h a t t h e y a p p l y ; f o r e x a m p l e , Ve r m o n t o r
California.

https://d.comenity.net/modellsmvp/pub/requestCca/requestCca.xhtml

18/18

